CERTIFICATE OF WORD COUNT
No.TBD
Wayne A. Powe and Regina Y. Powe,
Petitioner(s),
v.
Deutsche Bank National Trust Company, as Trustee for Residential Asset Securitization Trust Series
2004-A7 Mortgage Pass-Through Certificates 2004-G,
Respondent(s).

STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Wayne A. Powe and
Regina Y. Powe Petition for Writ of Certiorari contains 4549 words, including the parts of the
brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas *DeDeus
February 12, 2020

SCP Tracking: Powe-291 Oakwood Trail-Cover White

